HHS/OIG, Audit - "Review of Medicare Part B Services Rendered by a New
Jersey Urologist," (A-02-04-01036)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part B Services Rendered by a New Jersey Urologist," (A-02-04-01036)
September 15, 2006
Complete Text of Report is available in PDF format (426 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Medicare payments made to a urologist in New Jersey complied with Medicare reimbursement requirements. The urologist was paid for services that did not comply with Medicare reimbursement requirements. Of the 100 claims in our statistical sample, 90 claims for 185 services were unallowable for one or more reasons. As a result, for calendar year 2003, we estimate that the urologist improperly claimed $230,258 in Medicare reimbursement.
We recommended that the urologist (1) work with the New Jersey carrier to reimburse the Medicare program for the estimated overpayment of $230,258, and (2) establish effective controls to ensure that only services rendered sufficiently documented, and correctly coded are billed to Medicare. The urologist disputed the medical review results for 84 of the 90 claims identified as overpayments in our audit. He agreed with the results for the remaining 6 claims.